                         U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL




                                            July 26, 2013




The Honorable Brian D. Miller
Inspector General
General Services Administration
1800 F. Street, NW
Washington, DC 20220

Dear Mr. Miller:

Please find enclosed our Report on the Quality Assessment Review and our Letter of
Observations concerning the Investigative Operation of the Office of Inspector General
(OIG), U.S. General Services Administration (GSA). On this date, we've also forwarded
our opinion letter to the Attorney General.

In our opinion, the system of internal safeguards and management procedures for the
investigative function for the OIG at GSA is in full compliance with the Qualitative
Standards established by the Council of Inspectors General on Integrity and Efficiency
and the Attorney General Guidelines.

                                            Sincerely,

                                        07~
                                           ~~Jt E.
                                            Inspector General


Enclosures
